               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




    Delivery Unit Optimization Initiative

                       Audit Report




                                              December 6, 2012

Report Number MS-AR-13-001
                                                                        December 6, 2012

                                                   Delivery Unit Optimization Initiative

                                                          Report Number MS-AR-13-001




BACKGROUND:
The U.S. Postal Service is currently           methodologies to project and validate
facing many financial challenges with          savings, which led to inconsistent
declining mail volumes and revenue.            consolidation determinations. Also,
Consequently, it has implemented               management did not always perform
several initiatives intended to reduce         and document post consolidation
costs. One of these initiatives, Delivery      reviews. As a result, management has
Unit Optimization (DUO), involves              not effectively tracked the results of the
relocating letter carriers out of local post   DUO initiative, and we could not
offices, stations, and branches and into       determine whether the 1,500
centralized delivery offices to reduce         consolidations have reduced costs or
clerk and carrier workhours, building          improved operational efficiencies in
maintenance expenses, and                      delivery units.
transportation costs.
                                               However, we judgmentally selected
The Postal Service established                 five sites for detailed review, and found
guidelines in December 2010 for                mixed results. Three of the five sites had
implementing the DUO initiative. Since         reduced costs after consolidation, while
fiscal year 2011, about 1,500 DUO              two had increased costs. Furthermore,
consolidations have been implemented.          none of the five sites showed improved
                                               efficiencies 6 months after
In response to a request from Senator          consolidation.
Charles Grassley (Iowa), our objectives
were to determine whether the Postal           WHAT THE OIG RECOMMENDED:
Service complied with established DUO          We recommended the acting vice
initiative guidelines and whether the          president, Delivery and Post Office
DUO initiative reduced costs and               Operations, revise DUO guidelines to
improved operational efficiency.               include a well-defined, consistent
                                               methodology for projecting cost savings
WHAT THE OIG FOUND:                            and operational efficiencies. In addition,
Although management generally                  develop a process to ensure the revised
complied with DUO guidelines, the              guidelines are applied consistently and
guidelines were limited and did not            post consolidation reviews are
provide district management with a well-       performed to accurately validate savings
defined methodology to project and             and efficiencies.
validate savings and efficiencies. Thus,
local managers developed their own             Link to review the entire report
December 6, 2012

MEMORANDUM FOR:             GREG G. GRAVES
                            ACTING VICE PRESIDENT, DELIVERY AND POST
                            OFFICE OPERATIONS



FROM:                       Darrell E. Benjamin, Jr.
                            Deputy Assistant Inspector General
                             for Revenue and Innovation

SUBJECT:                    Audit Report – Delivery Unit Optimization Initiative
                            (Report Number MS-AR-13-001)

This report presents the results of our audit of the Delivery Unit Optimization Initiative
(Project Number 12RG020EN000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Sean D. Balduff, deputy
director, Sales and Marketing, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Jeffrey C. Day
    Elizabeth Schaefer
    Corporate Audit and Response Management
Delivery Unit Optimization Initiative                                                                              MS-AR-13-001




                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Delivery Unit Optimization Guidelines ............................................................................. 2

Post Consolidation Reviews ............................................................................................ 3

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 4

Appendix A: Additional Information ................................................................................. 5

   Background ................................................................................................................. 5

   Objectives, Scope, and Methodology .......................................................................... 5

   Prior Audit Coverage ................................................................................................... 6

Appendix B: Cost Savings and Operational Efficiencies ................................................. 7

   Cost Savings ............................................................................................................... 7

   Operational Efficiencies ............................................................................................... 8

Appendix C: Management’s Comments ........................................................................ 10
Delivery Unit Optimization Initiative                                                                 MS-AR-13-001




Introduction

This report presents the results of our audit of the Delivery Unit Optimization (DUO)
Initiative (Project Number 12RG020EN000). On September 23, 2011, the U.S. Postal
Service Office of Inspector General (OIG) received an inquiry from the office of the
Honorable Charles E. Grassley, U.S. Senator from Iowa. The report responds to his
request to review the DUO initiative and addresses operational risks. Our objectives
were to determine whether the U.S. Postal Service complied with established DUO
initiative guidelines and whether the initiative reduced costs and improved operational
efficiency.

The Postal Service is currently facing many financial challenges with declining mail
volumes and revenue. To help address these financial challenges, the Postal Service
has implemented several initiatives intended to reduce costs. One of these initiatives,
DUO, involves relocating letter carriers out of local post offices, stations, and branches
and consolidating them into centralized delivery offices to reduce clerk and carrier
workhours, building maintenance expenses, and transportation costs.

In December 2010, the Postal Service established limited guidelines for district
management to use when implementing DUO consolidations. The guidelines provided a
process checklist; 1 sample letters for notifying Congress, customers, and employees;
and a mapping tool 2 for selecting potential consolidation sites. Since fiscal year (FY)
2011, about 1,500 DUO consolidations have been implemented. See Appendix A for
additional information about this audit.

Conclusion

District management generally complied with DUO guidelines when implementing
consolidations but we could not determine whether overall, the initiative reduced costs
and improved operational efficiencies in delivery units. DUO guidelines were limited and
did not provide district management with a well-defined methodology to project and
validate savings and efficiencies. Consequently, district management developed various
methodologies to make these calculations, which led to inconsistent consolidation
determinations. In addition, district management did not always perform and document
post consolidation reviews to assess savings and efficiencies. As a result, management
has not effectively tracked the results of the DUO initiative and we could not determine
whether the 1,500 consolidations have reduced costs or improved operational
efficiencies in delivery units. However, we judgmentally selected five sites for detailed
review and found mixed results. Three of the five sites had reduced costs after

1
  The DUO checklist included 84 steps in five categories that DUO coordinators need to complete before
implementation of a DUO. The five categories are: Communication, Office, Clerk, Rural, and City Carriers.
2
  According to Postal Service management, the Electronic Facilities Management System mapping tool is used within
the initial steps to determine where opportunities exist for moving carrier operations. The information from the tool
along with local knowledge is used to make determinations.
                                                             1
Delivery Unit Optimization Initiative                                                                   MS-AR-13-001



consolidation, while two had increased costs. Furthermore, none of the five sites
showed improved efficiencies 6 months after consolidation.

Delivery Unit Optimization Guidelines

District management used inconsistent methodologies to project cost savings related to
DUO consolidations. This occurred because the DUO guidelines did not contain specific
guidance regarding the methodologies for the districts to use to project savings before
performing consolidations. Therefore, district management developed their own
inconsistent methodologies for making these calculations. During our visits to five
consolidated sites 3 in four districts, we noted the following differences in how
management projected anticipated savings

       All five consolidated DUO sites projected savings using different periods such as
        1 month, 6 months, and 1 year after the consolidations.

       Three of the sites 4 used cost line items from the Financial Performance Report
        (FPR); 5 however, the line items used were inconsistent among the three sites.

       Two of the sites 6 prepared business plans, which included items such as cost
        analyses, general notifications, employee movement, and savings analyses. 7

       One of the sites 8 also used a 10-Year Net-Present Value 9 to determine the savings;
        however, management was not able to provide a copy of the savings
        documentation for our review.
In May 2012, headquarters management developed an electronic worksheet located on
the Change Suspension Discontinuance Center (CSDC) website 10 for district DUO
coordinators to identify and report projected cost savings for all consolidations planned
to date. 11 However, headquarters management neither defined nor provided a specific
methodology for making key calculations for items contained in the worksheet such as
other costs, other savings, and transportation. We judgmentally selected and reviewed
the electronic worksheets for 45 DUO consolidated sites and found that 27 (60 percent)
of the sites had not completed the worksheet as of July 31, 2012. 12

3
    The five consolidated sites we visited were

  South Milwaukee, Franklin, and Asheboro.
5
  The FPR is an accounting period report available in the Accounting Data Mart (ADM). The FPR shows items such
as current period and year-to-date actual, plan, and same period last year revenue and expenses. It segregates
activities by categories such as revenue, salary and benefits, and supplies and services.
6
  Clarkston and Grundy Center.
7
  One of these sites only provided cost analysis information on its business plan.
8
  Grundy Center.
9
  Net present value is the value today of a future stream of costs or benefits.
10
   An interactive website that allows districts and areas to view material related to suspensions or discontinuances of
post offices and to enter data to make those changes.
11
   Before May 2012, the Postal Service did not have an electronic system to track projected saving.
12
   The requirement to complete the estimated cost savings worksheet applied to all consolidations, whether they
occurred before May 2012 or after.


                                                           2
Delivery Unit Optimization Initiative                                           MS-AR-13-001




Having a well-defined and consistent process to project and validate potential cost
savings ensures savings and efficiencies are reported correctly for each DUO
consolidation.
Post Consolidation Reviews

District management did not always perform and document post consolidation reviews
as required. The DUO guidelines 13 required district management to create (1) a
summary of costs and savings 30 days after consolidation, (2) a post evaluation review
within 45 days to ensure projected savings were realized and (3) an after cost study
semiannually. However, the guidelines did not have a defined methodology for
calculating and validating the savings. Management at two 14 of the four districts we
visited tracked costs subsequent to the consolidations at the 85 DUO sites within their
districts. However, management at the other two districts 15 could not provide support for
any of the required post consolidation reviews related to about 97 consolidations
implemented in FY 2011.

In addition, the four districts did not conduct a review of operational efficiency after any
of their consolidations. The guidelines required district management to conduct a follow-
 up review of administrative and operational efficiency. However, the guidelines did not
provide guidance regarding the procedures for determining operational efficiencies or
the timeframes for completing the review.

In coordination with Postal Service management, we developed a methodology to
analyze cost savings and efficiencies for the five consolidated sites we visited. Based
on our analysis, two sites did not realize cost savings 6 months after their consolidation
was completed. In addition, none of the five sites we visited showed improved
efficiencies 6 months after consolidation. See Appendix B for additional information.

Performing and documenting post evaluation reviews ensures the Postal Service can
determine whether the consolidations resulted in cost savings or improved efficiencies.
Additionally, these reviews are useful in evaluating the success of the overall DUO
initiative and if process modifications are warranted.




13
   Delivery Unit Optimization Guidelines, Version 1.1, dated December 2010.
14
   Lakeland and Greensboro.
15
   Hawkeye and Atlanta.


                                                        3
Delivery Unit Optimization Initiative                                         MS-AR-13-001




Recommendations

We recommend the acting vice president, Delivery and Post Office Operations:

1. Revise delivery unit optimization guidelines to include a well-defined, consistent
   methodology for projecting cost savings and operational efficiencies.

2. Develop a process to ensure the revised guidelines are applied consistently and
   post consolidation reviews are performed to accurately validate savings and
   efficiencies.

Management’s Comments

Management agreed with the findings and recommendations. Regarding
recommendation 1, management stated they will work with the Finance department to
develop a standardized financial workbook that will include a well-defined, consistent
methodology for projecting cost savings and operational efficiencies. Language from the
financial workbook will be added to the DUO guidebook. Management’s target date for
implementation is March 1, 2013.

Regarding recommendation 2, management stated they are developing a process
within CSDC that will ensure the revised guidelines are applied consistently throughout
each DUO implementation and will include an ongoing process to validate savings. In
addition, they will use a 10-year net present value to realize all potential savings.
Management’s target date for implementation is March 1, 2013.

See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

The OIG considers both recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                            4
Delivery Unit Optimization Initiative                                            MS-AR-13-001



                                Appendix A: Additional Information

Background

The Postal Service developed the DUO initiative, in December 2010, as a means to
optimize the retail network and to improve operational efficiency by relocating letter
carriers out of local post offices, stations, and branches and consolidating them into
centralized delivery offices. These consolidations are designed to reduce facility space
requirements, which decreases lease expenses and building maintenance costs. In
addition, the consolidations are intended to reduce costs and improve operational
efficiencies in areas such as clerk and carrier workhours and transportation.

The Postal Service established guidelines for implementing the DUO initiative, which
included limited instructions for selecting potential consolidation sites. Since FY 2011,
the Postal Service has implemented about 1,500 DUO consolidations.

Objectives, Scope, and Methodology

Our objectives were to determine whether the Postal Service complied with established
DUO initiative guidelines and whether the initiative reduced costs and improved
operational efficiency. To accomplish our objectives, we judgmentally selected sites to
visit based on size and location, and discussions with headquarters management and
union officials. We visited the following losing and gaining delivery units and reviewed
detailed data related to their DUO consolidation efforts.

                         Table 1. DUO Implementation Sites and Dates

                                                                             Implementation
 District Name           Losing Delivery Unit        Gaining Delivery Unit        Date
Greensboro, NC          Ramseur, NC                 Asheboro, NC               4/23/2011

                        Avondale Estates, GA
Atlanta, GA                                         Clarkston, GA              5/21/2011
                        Scottdale, GA

Hawkeye, IA             Eldora, IA                  Grundy Center, IA          8/27/2011

                        Greendale, WI               Franklin, WI
Lakeland, WI                                                                   11/5/2011
                        Cudahy, WI                  South Milwaukee, WI
Source: CSDC Website

We interviewed headquarters and district managers, postmasters, and officers-in -
charge to determine whether DUO guidelines were followed, and consolidation efforts
were effective and generated savings. We also interviewed the president of the National
League of Postmasters to discuss league concerns related to the DUO initiative. In



                                                5
Delivery Unit Optimization Initiative                                                                 MS-AR-13-001



addition, we reviewed estimated cost savings worksheets maintained on the CSDC
website for 45 judgmentally selected consolidated sites.

We conducted this performance audit from January through December 2012, in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We relied on data obtained
from the Enterprise Data Warehouse (EDW), 16 Rural Delivery Variance (RDV) and City
Delivery Variance (CDV), 17 and Customer Service Variance (CSV) 18 databases. We did
not audit the EDW, RDV, CDV, and CSV systems but performed limited data integrity
tests to support our data reliance. We discussed our observations and conclusions with
management on October 23, 2012, and included their comments where appropriate.

Prior Audit Coverage

                                                                   Final
                                                                  Report
           Report Title        Report Number                       Date
                                                                    Monetary Impact
     Retail Customer           MS-AR-11-002                       3/30/11
                                                                $25.8 million over the
     Service Operations                                         next 10 years.
     Realignment in the
     Hawkeye District
     Report Results:
     Management agreed with our findings, recommendation, and $25.8 million of
     monetary impact in funds put to better use. Management also agreed to realign
     customer service operations and explore opportunities to realign 75 percent of the
     Customer Service operations identified on the OIG suggested list by December
     2012.




16
   The EDW is a single repository for managing all of the Postal Service's data assets and provides data to a wide
variety of users.
17
   The Rural and City Delivery Variances (RDV and CDV) determine the percent to standard by dividing actual office
hours by standard office hours. By using less hours than standard (percent to standard below 100 percent), the office
will show that it is working at a high efficiency level.
18
   The CSV program calculates actual vs. earned workhour performance against standardized target productivity
expectations.


                                                          6
Delivery Unit Optimization Initiative                                         MS-AR-13-001



                  Appendix B: Cost Savings and Operational Efficiencies

Cost Savings

We conducted our own analysis for the five DUO sites we visited to determine the
savings resulting from the consolidations. To perform our analysis we compared specific
FPR Line Item costs 1 month before the DUO implementation with the same costs 6
months after the consolidation. The costs we used in our analysis are listed in Table 2.

                         Table 2. FPR Line Items Used in Our Analysis
    FPR Line #                                 FPR Line Description
       12                 OPERATIONS-DEL SERV-RURAL
       14                 OPERATIONS-CUSTOMER SERVICE
       18                 ADMINISTRATION
       22                 OPERATIONS-CITY DELIVERY
       2A                 PERFORMANCE BASED COMPENSATION
       2J                 WORKERS' COMPENSATION CHARGEBACK
       31                 SUPPLIES
       33                 SUPPLIES-ISSUED FROM INVENTORY
       34                 SERVICES
       3F                 CONTRACT JOB CLEANERS
       3H                 VEHICLE MAINTENANCE SERVICES
       3J                 VEHICLE HIRE
       3L                 RURAL CARRIER EQUIPMENT MAINTENTANCE
       41                 RENT
       42                 UTILITIES & HEATING FUEL
          3S              OTHER TRANSPORTATION
          3P              HIGHWAY TRANSPORTATION
Sources: EDW – ADM.

We developed and discussed our methodology with finance managers at the districts
we visited and with headquarters management. We used the same methodology to
determine savings at each of the five sites. As indicated in Table 3, three of the five
sites had reduced costs after consolidation, while two incurred additional costs 6
months after consolidation.




                                             7
Delivery Unit Optimization Initiative                                                                    MS-AR-13-001




            Table 3. Savings/(Additional Costs) 6 Months After Consolidation
                                                                                           6 Months After
                                                                                        Consolidation Savings
                                                                                                      19
        Losing Facility                         Gaining Facility                             (Costs)
Ramseur, NC                              Asheboro, NC                                                        $39,395
Avondale Estates, GA
                                         Clarkston, GA
Scottdale, GA                                                                                              ($67,618)
Eldora, IA                               Grundy Center, IA                                                     ($66)
Greendale, WI                            Franklin, WI                                                       $158,476

Cudahy, WI                               South Milwaukee, WI                                                 $99,423
Source: U.S. Postal Service EDW System.

Operational Efficiencies

We conducted our own analysis at the five DUO sites we visited to determine whether
efficiencies improved after consolidation. We used metrics from Postal Service variance
programs traditionally used in operational reviews.

Our analysis of operational efficiency for the DUO consolidations implemented for three
rural and two city delivery units showed that performance stayed the same or worsened
6 months after the consolidations when compared to 1 month before the consolidations.
See Table 4 for performance results (higher scores indicate a lower level of
performance).




19
   We believe the methodology we used is reasonable and was appropriately coordinated with Postal Service
officials; however, the use of a different methodology or a different time period may have resulted in reporting
different amounts of savings and costs.


                                                           8
Delivery Unit Optimization Initiative                                         MS-AR-13-001




              Table 4. RDV and CDV: Before and After Consolidation
                                           Performance 1       Performance 6
                             Type of       Month Before         Months After
  Delivery Unit Name        Delivery       Consolidation        Consolidation
Asheboro, NC              Rural                          98                 101
Grundy Center, IA         Rural                         100                 101
Franklin Branch, WI       Rural                         102                 102

Clarkston, GA                        City                              67               77
South Milwaukee, WI                  City                              66               89
Source: Postal Service Variance Program for rural and city delivery.

Our comparison of CSVs at all five delivery units revealed that operational efficiency did
not improve 6 months after the consolidations compared to 1 month before the
consolidations. Higher performance scores indicate a higher level of performance. See
Table 5 for performance results.

                   Table 5. CSV: Before and After Consolidation
                                            Performance 1       Performance 6
                              Type of        Month Before        Months After
  Delivery Unit Name         Delivery        Consolidation      Consolidation
Asheboro, NC              Rural                            87                 83
Grundy Center, IA         Rural                           144               125
Franklin Branch, WI       Rural                            92                 87

Clarkston, GA                        City                              101             75
South Milwaukee, WI                  City                              130            100
Source: Postal Service CSV Program.




                                                          9
Delivery Unit Optimization Initiative                             MS-AR-13-001



                              Appendix C: Management’s Comments




                                             10
Delivery Unit Optimization Initiative        MS-AR-13-001




                                        11
